Audit Report




OIG-11-079
RECOVERY ACT: The Community Development Financial
Institutions Fund Needs to Improve Its Process for Awarding
Assistance to Applicants

July 8, 2011




Office of
Inspector General
Department of the Treasury
 
Contents

Audit Report

  Results in Brief ............................................................................................. 1

  Background ................................................................................................. 2

  Findings and Recommendations ..................................................................... 6

          CDFI Fund’s Policies and Procedures Are Not in Compliance
          With Certain Statutory Requirements ...................................................... 6

          Recommendations ................................................................................ 8

          Applications for Fiscal Year 2009 Funding Were Not Evaluated in a Fair
          and Consistent Manner ......................................................................... 9

          Recommendation ............................................................................... 10

          Applications for Fiscal Year 2009 Funding Were Not Always Scored in
          Compliance with Reviewer and Team Leader Guidance Nor Were Complete
          Files Maintained ................................................................................. 11

          Recommendations ...............................................................................13

          Assistance Agreements for Fiscal Year 2009 Funding Were Not
          Prepared Consistently ........................................................................ 15

          Recommendations .............................................................................. 16

Appendices

  Appendix     1:      Objectives, Scope and Methodology ........................................ 19
  Appendix     2:      Management Response ......................................................... 20
  Appendix     3:      Major Contributors to This Report ........................................... 26
  Appendix     4:      Report Distribution ................................................................ 27




                    The Community Development Financial Institutions Fund Needs to Improve
                     Its Process for Awarding Assistance to Applicants (OIG-11-079)                        Page i
Contents

Abbreviations

  CDFI Fund               Community Development Financial Institutions Fund
  FA                      financial assistance
  NACA                    Native American CDFI Assistance
  NOFA                    Notice of Funds Availability
  OIG                     Treasury Office of Inspector General
  Recovery Act            American Recovery and Reinvestment Act of 2009
  TA                      technical assistance




                The Community Development Financial Institutions Fund Needs to Improve
                 Its Process for Awarding Assistance to Applicants (OIG-11-079)          Page ii
                                                                                   Audit
OIG
The Department of the Treasury
                                                                                   Report
Office of Inspector General




                        July 8, 2011

                        Donna Gambrell, Director
                        Community Development Financial Institutions Fund
                        Department of the Treasury


                        Title V of the American Recovery and Reinvestment Act of 2009
                        (Recovery Act) authorized $100 million in additional funding for the
                        Community Development Financial Institutions (CDFI) Fund’s fiscal
                        year 2009 award round. 1 This report presents the results of our
                        audit of the CDFI Fund’s process for awarding grants to applicants
                        for assistance during the fiscal year 2009 award round.

                        We conducted this audit as part of our ongoing oversight of the
                        Department of the Treasury’s programs established by, and use of
                        funds authorized by, the Recovery Act. The overall objective of our
                        oversight is to evaluate management’s accountability, control, and
                        oversight of Recovery Act funds and make recommendations for
                        improving operations and preventing fraud, waste, and abuse with
                        respect to those funds. Through a series of reports, we will report
                        on the CDFI Fund’s accountability, control, and oversight of
                        additional funding provided by the Recovery Act. Our audit
                        objective for this report was to assess the CDFI Fund’s process for
                        awarding Recovery Act funds. See appendix 1 for our objectives,
                        scope, and methodology.

Results in Brief
                        We found that in awarding Recovery Act funds, the CDFI Fund did
                        not comply with certain statutory requirements of the Recovery
                        Act, nor the Riegle Community Development and Regulatory

1
    Pub. L. No. 111-5, 123 Stat. 115 (Feb. 17, 2009).

                 The Community Development Financial Institutions Fund Needs to Improve
                 Its Process for Awarding Assistance to Applicants (OIG-11-079)           Page 1
                        Improvement Act of 1994 (Riegle Act), 2 the law that authorized
                        establishment of the CDFI Fund. We also found inconsistencies in
                        how the CDFI Fund evaluated and scored fiscal year 2009 funding
                        applications. Furthermore, the CDFI Fund did not ensure that
                        reviewers’ guidance was consistently followed or that complete
                        assistance application files were always maintained. Finally, we
                        found that some fiscal year 2009 assistance agreements were
                        missing key schedules and another contained more stringent
                        requirements than it should have.

                        To address these findings, we are making a number of
                        recommendations to the Director of the CDFI Fund to ensure
                        compliance with applicable laws and regulations and to ensure
                        consistency in evaluating and scoring funding applications.
                        Additionally, we recommend that the CDFI Fund Director put
                        controls in place to ensure that reviewer guidance is consistently
                        followed and that complete assistance applications files are
                        properly maintained. We are also recommending that the CDFI
                        Fund Director review all assistance agreements for key schedules
                        and proper performance measures, and correct the agreements as
                        appropriate.

                        Overall, CDFI Fund management agreed with our recommendations
                        to improve its processes for awarding assistance. Furthermore, in
                        order to provide management with the opportunity to take
                        corrective actions as early as possible, we communicated our
                        findings with CDFI Fund management throughout the audit. As a
                        result, CDFI Fund management’s response states that the
                        corrective actions have already been taken in some cases, and
                        provides detailed corrective action plans for the others. It should be
                        noted that we have not verified the actions that CDFI Fund
                        management has taken in response to this audit. Management’s
                        response is provided in appendix 2.

Background
                        The Riegle Act established the CDFI Fund to provide financial
                        assistance in the form of grants, loans, and other investments on a

2
    Pub. L. No. 103-325, 108 Stat. 2160 (Sep. 23, 1994).


                 The Community Development Financial Institutions Fund Needs to Improve
                 Its Process for Awarding Assistance to Applicants (OIG-11-079)           Page 2
                       competitive basis to certified CDFIs. Certified CDFIs are
                       nongovernmental, specialized financial institutions that work in
                       low-income communities or serve individuals or businesses that
                       lack access to mainstream financial institutions. CDFIs provide
                       many financial services, including capital to small businesses and
                       micro-enterprises, mortgage loans to first-time homebuyers,
                       financing to support the development of affordable housing
                       projects and community facilities, and retail banking services to the
                       unbanked.

                       The Recovery Act was signed into law on February 17, 2009, to
                       provide financial assistance or supplemental appropriations for
                       existing programs to help address the effects of the economic
                       crisis. Part of the relief provided by the Recovery Act consisted of
                       grants to qualified applicants for community development
                       financing. Specifically, the Recovery Act provided an additional
                       $100 million to the CDFI Fund for its fiscal year 2009 funding
                       round to make awards through the CDFI Program 3 and the Native
                       American CDFI Assistance (NACA) Program. Of this amount, the
                       Recovery Act designated up to $8 million for financial assistance,
                       technical assistance, training, and outreach programs to benefit the
                       Native American, Native Hawaiian, and Native Alaskan initiatives
                       and allowed for $2 million to fund administrative costs incurred by
                       the CDFI Fund. The remaining $90 million was set aside to fund
                       the CDFI Program.

                       Under the Recovery Act, CDFI Fund grants were to be awarded in
                       the same manner as other CDFI Program grants, with two
                       exceptions. First, the Recovery Act waived the Riegle Act’s
                       requirement that applicants obtain matching funds from nonfederal
                       sources. 4 Second, it removed the Riegle Act’s $5 million funding
                       cap on total awards to any one applicant during any 3-year period
                       for the fiscal year 2009 funding round. 5 Because of the additional
                       funding provided through the Recovery Act, the CDFI Fund
                       conducted its fiscal year 2009 funding round in two stages under


3
  A program administered through the CDFI Fund that uses federal resources to invest in CDFIs and
build their capacity to serve low-income people and communities that lack access to affordable financial
products and services.
4
  12 U.S.C. § 4707(e).
5
  12 U.S.C. § 4707(d).

               The Community Development Financial Institutions Fund Needs to Improve
               Its Process for Awarding Assistance to Applicants (OIG-11-079)                     Page 3
                       two separate Notices of Funds Availability 6 (NOFAs), each with
                       different application criteria. The first stage was announced in a
                       NOFA in August 2008, prior to the passage of the Recovery Act.
                       The second stage was announced in a NOFA in April 2009, after
                       the Recovery Act was enacted. At the time when the second stage
                       of the fiscal year 2009 funding round was announced, assistance
                       had not yet been awarded to any applicants under either stage of
                       the fiscal year 2009 funding round. Regardless, the first stage
                       NOFA requirements were not amended to include waivers for
                       matching funds and the funding cap to comply with the Recovery
                       Act. Moreover, applicants who had already submitted applications
                       for funding assistance under the requirements of the first NOFA
                       were not asked to modify or resubmit their applications. As a
                       result, this may have significantly limited the amount of assistance
                       requested by those applicants. Furthermore, in making first stage
                       awards, CDFI Fund officials considered only pre-Recovery Act
                       criteria. Again, this may have significantly limited the amount of
                       assistance awarded to first stage applicants. This occurred even
                       though, at the time of the April 2009 NOFA, no assistance had
                       been awarded to any applicant under the first or second stage of
                       the fiscal year 2009 funding round; and, once the Recovery Act
                       passed, its waivers for matching funding and the $5 million cap
                       should have applied to all applicants under the entire fiscal year
                       2009 funding round. It should be noted that the CDFI Fund is
                       required to process and evaluate funding applications in a fair and
                       consistent manner. 7

                       The CDFI Program Office is responsible for conducting application
                       reviews and managing the award process for the CDFI Program and
                       the NACA Program. The reviews are conducted in two phases.
                       Phase I review is performed by contracted external reviewers, or
                       readers, who score applications. These external readers are to
                       provide thorough scoring and written justifications for the scores
                       they assign and the award amounts they recommend.




6
  An announcement in the Federal Register of the availability of federal money for a program, and the
corresponding application deadlines, eligibility requirements and resources for assistance with applying
for the program.
7
  12 U.S.C. 1805.700(a)

               The Community Development Financial Institutions Fund Needs to Improve
               Its Process for Awarding Assistance to Applicants (OIG-11-079)                      Page 4
                     Each application is reviewed by three readers, who score questions
                     and subquestions in a review workbook. 8 Each applicant is
                     evaluated on a 100 point scale based on the five criteria in the
                     application. The criteria include a market analysis, business
                     strategy, community development performance (i.e., a track record
                     of providing financial services), management, and the applicant’s
                     financial health and viability. Readers score each criterion, or
                     section, of the workbook and must provide sufficient justifications
                     for the scores they assign.

                     A CDFI Fund team leader oversees the Phase I review primarily to
                     ensure that

                         •   the reviews progress on schedule;
                         •   readers’ questions are answered;
                         •   readers’ scores and comments conform to applicable
                             guidance;
                         •   readers’ scores are consistent with the corresponding
                             subquestions within the review workbook;
                         •   strengths and weaknesses noted by readers are clear,
                             substantive, address key components for that section of the
                             business plan, and are ready for the public;
                         •   the scores and comments of the three Phase I readers are
                             not in factual conflict with one another; and
                         •   the review is complete and applicants are eligible.

                     The Phase II review is a follow-up review conducted internally by
                     CDFI Fund staff. During Phase II, CDFI Fund staff review the Phase
                     I readers’ justifications and scores to resolve any critical
                     outstanding issues or changes and to determine appropriate award
                     amounts. Based on the recommendations of the Phase II reviewers,
                     the grant manager in the CDFI Program Office makes the final
                     award determination.

                     The grant manager certifies the completion of the award package
                     and confirms that CDFI Fund personnel completed the appropriate
                     eligibility checks, scoring or funding amount adjustments,
                     consistency review, and award justification. Additionally, the grant

8
 The review workbook is in the Community Development Financial Institutions Fund 2009 CDFI
Program Reviewer Guidance.

              The Community Development Financial Institutions Fund Needs to Improve
              Its Process for Awarding Assistance to Applicants (OIG-11-079)                 Page 5
                        manager identifies and resolves any issues related to procedures,
                        justifications, or budget. The grant management staff enter the
                        information from the award application into the web-based
                        Assistance Agreement System to create the assistance
                        agreements, and notifies the Office of Public and Legislative Affairs
                        of the pending award. From the Assistance Agreement System,
                        legal staff generates the draft assistance agreement and review it
                        to ensure that the appropriate goals and measures, program and
                        statutory regulations, CDFI Fund policies, and other data elements
                        from the award package are included. Following legal’s review, the
                        assistance agreements are provided to the grantee for signature.

Findings and Recommendations

Finding 1               CDFI Fund’s Policies and Procedures Were Not in
                        Compliance With Certain Statutory Requirements
                        We found that, in awarding Recovery Act funds, the CDFI Fund did
                        not follow the Riegle Act’s requirement that applicants submit
                        comprehensive 5-year business plans 9 or consistently apply the
                        Recovery Act’s waiver of the Riegle Act’s matching fund
                        requirements and funding cap for fiscal year 2009.

                        Riegle Act Noncompliance

                        Among other things, the Riegle Act requires that applicants
                        applying for assistance from the CDFI Fund submit a “business plan
                        of not less than 5 years in duration that demonstrates that the
                        applicant will be properly managed and will have the capacity to
                        operate as a community development financial institution that will
                        not be dependent upon assistance from the Fund for continued
                        viability.” 10 We found however that CDFI Fund policy requires that
                        applicants submit a 6-year plan that projects 3 years forward and
                        provides data from the previous 3 years.

                        CDFI Fund personnel maintain that current policy complies with the
                        Riegle Act and stated that the 6-year plan provides more

9
    12 U.S.C. § 4704(b)(2)(A)
10
     12 U.S.C. § 4704(b)(2)(A).

                 The Community Development Financial Institutions Fund Needs to Improve
                 Its Process for Awarding Assistance to Applicants (OIG-11-079)           Page 6
       information—6 years rather than 5—than the law requires. We do
       not believe that business plans projecting only 3 years forward,
       rather than 5, meet the intent of the Riegle Act for applicants to
       adequately demonstrate their ability to sustain operations without
       future assistance from the CDFI Fund.

       Recovery Act Noncompliance

       In addition to providing additional funding to the CDFI Fund, the
       Recovery Act waived certain provisions of the Riegle Act for the
       fiscal year 2009 funding round, including the requirement that
       applicants for assistance other than technical assistance obtain
       matching funds from nonfederal sources and capping funds at $5
       million. However, we found that the CDFI Fund did not revise its
       award process during the first stage of the fiscal year 2009
       funding round to comply with the waivers.

       The CDFI Fund conducted its fiscal year 2009 funding round in two
       stages. The first stage was announced in a CDFI Fund NOFA
       issued on August 15, 2008. Applicants applying under this NOFA
       were required to obtain matching funds and were limited by the $5
       million funding cap. Reviewing and scoring of applications received
       under this NOFA were completed by March 3, 2009.

       The CDFI Fund released its Recovery Act implementation plan,
       waiving the matching funds requirement and the $5 million cap, on
       March 18, 2009. Following this announcement, however, the
       award process for the first stage of the fiscal year 2009 funding
       round was not re-opened or otherwise modified to accommodate
       applicants denied under the August 2008 NOFA because of their
       inability to obtain matching funds or because their requests
       exceeded the $5 million cap. As a result, these applicants may not
       have had an opportunity to request or receive the fullest amount of
       assistance for which they were eligible during the first stage of the
       fiscal year 2009 funding round.

       It was not until the second stage of the fiscal year 2009 funding
       round, under a separate NOFA issued on April 28, 2009, that the
       CDFI Fund changed its assistance application requirements to
       waive the matching funds requirement and eliminate the funding
       cap. Consequently, the matching funds and funding cap waivers

The Community Development Financial Institutions Fund Needs to Improve
Its Process for Awarding Assistance to Applicants (OIG-11-079)           Page 7
       were not applied consistently to all applicants during the fiscal year
       2009 funding round. This occurred even though, at the time of the
       April 2009 NOFA, no assistance had been awarded to any
       applicant under the first or second stage of the fiscal year 2009
       funding round; and, once the Recovery Act passed, its waivers for
       matching funding and the $5 million cap should have applied to all
       applicants under the entire fiscal year 2009 funding round.

       Recommendations

       We recommend that CDFI Fund Director take the following action:

          1.    Revise the CDFI Fund application requirements to require
                that applicants provide comprehensive business plans that
                project out at least 5 years, in accordance with the
                requirements of the Riegle Act.

                Management Response

                CDFI Fund management stated that going forward, the
                CDFI Fund will require applicants to submit comprehensive
                business plans projecting 5 years into the future, as
                recommended, beginning with the fiscal year 2012 funding
                round of the CDFI Program.

                OIG Comment

                Management’s planned action meets the intent of our
                recommendation.

          2.    Revise current policy and related guidance to ensure
                compliance with statutory requirements. These revisions
                should include steps to ensure that the guidance is
                amended in a timely manner to incorporate all legislative
                changes so that applicants are knowledgeable of all
                applicable requirements.

                Management Response

                CDFI Fund management stated that it has already taken
                action to comply with this recommendation by ensuring


The Community Development Financial Institutions Fund Needs to Improve
Its Process for Awarding Assistance to Applicants (OIG-11-079)           Page 8
                                that CDFI Program applicants for the fiscal year 2011
                                round were made aware of the possibility of a
                                Congressional waiver of the matching funds and $5 million
                                cap requirements at the time of application.

                                OIG Comment

                                Management’s response meets the intent of our
                                recommendation. Going forward, the CDFI Fund will need
                                to ensure that program policy and related guidance be
                                continually updated to reflect legislative changes.

Finding 2              Applications for Fiscal Year 2009 Funding Were
                       Not Evaluated in a Fair and Consistent Manner
                       The CDFI Fund’s process for evaluating fiscal year 2009
                       applications did not ensure that applicants were evaluated in a fair
                       and consistent manner in accordance with the Riegle Act. As
                       discussed in finding 1, in addition to inconsistencies identified in
                       the application for assistance criteria, we identified inconsistencies
                       in how the applications were evaluated and scored. Applicants who
                       applied for CDFI Fund awards during the first stage of the fiscal
                       year 2009 funding round received scores based on requests for
                       both financial assistance (FA) and technical assistance (TA)
                       awards. 11 Applicants received an overall combined score, which
                       impacted their overall ranking. However, during the second stage
                       of the fiscal year 2009 funding round, the CDFI Fund changed its
                       scoring method in that it did not accept TA requests at all. In other
                       words, applicants who applied for funding during the second stage,
                       received scores based only on their need for FA funds.

                       Applicants not funded during the first stage of the fiscal year 2009
                       funding round were automatically considered for funding during the
                       second stage. However, they were not required to resubmit their
                       applications requesting FA funding only, and the scores they
                       received for TA in the first stage were not removed from their

11
  Financial assistance awards are intended to provide financial support to CDFIs to enable them to carry
out the strategies outlined in their comprehensive business plans. Technical assistance awards may be
used by CDFIs to address a variety of needs, including development of strategic planning documents,
market analyses or product feasibility analyses, and operational policies and procedures.

               The Community Development Financial Institutions Fund Needs to Improve
               Its Process for Awarding Assistance to Applicants (OIG-11-079)                    Page 9
       overall combined scores. As a result, applicants requesting both FA
       and TA awards, who did not receive funding during the first stage,
       placed higher on the ranking scale during the second stage of the
       award round because they were evaluated based on combined
       scores rather than on financial assistance scores only.

       We believe that applicants who requested FA funding only during
       the second stage of the fiscal year 2009 funding round may have
       been denied awards because they were at a disadvantage to
       applicants whose scores included first-stage TA scores.

       To address this, CDFI Fund staff informed us that the CDFI
       Program application for fiscal year 2011 was revised so that
       applicants could apply for either FA or TA, but not both. At the
       time of our field work, the fiscal year 2010 funding round had
       already been awarded. We reviewed the fiscal year 2011
       application form and verified that the CDFI Fund made the
       necessary revisions.

       Recommendation

       We recommend that CDFI Fund Director take the following action:

          3.    To ensure better consistency, revise procedures and
                reviewer guidance to include a step that would require
                readers and reviewers of CDFI Fund applications to review
                applicable NOFA criteria when scoring applications.

                Management Response

                CDFI Fund management stated that it revised the fiscal
                year 2011 CDFI Program application, requiring separate
                applications for financial assistance and technical
                assistance which will be the application for future rounds.
                In addition, the CDFI Program reviewers’ guidance packet
                included the NOFA and, during reviewer training, CDFI
                Fund staff instructed reviewers to read the NOFA and refer
                to it when scoring applications.




The Community Development Financial Institutions Fund Needs to Improve
Its Process for Awarding Assistance to Applicants (OIG-11-079)           Page 10
                            OIG Comment

                            Management’s response meets the intent of our
                            recommendation.

Finding 3          Applications for Fiscal Year 2009 Funding Were
                   Not Always Scored in Compliance With Reviewer
                   and Team Leader Guidance Nor Were Complete
                   Files Maintained
                   The CDFI Fund did not ensure that assistance applications were
                   evaluated in accordance with reviewer and team leader guidance
                   during the fiscal year 2009 funding round. We identified several
                   instances in which Phase I readers and the CDFI Fund team leader
                   did not always follow applicable guidance for ensuring fair and
                   consistent evaluation of applicants for CDFl Program and NACA
                   Program assistance, which resulted in disparate and, in some
                   cases, unsupported scores. Furthermore, several application
                   packages were missing key documents necessary to perform
                   complete reviews.

                   The “2009 CDFI Program Reviewer Guidance” required that Phase I
                   readers perform reviews of applications evaluating each applicant’s
                   market analysis, business strategy, community development
                   performance (i.e. track record in providing financial services),
                   management, and its financial health and viability. In short, Phase I
                   readers were required to assign scores to each section and provide
                   justifications for the scores they assigned based on applicants’
                   responses and readers’ professional experience .

                   We found instances where Phase I readers’ written justifications
                   did not support the scores they assigned. Additionally, as the
                   review process within the CDFI Fund moved forward, we often
                   found that neither the team leader nor the Phase II reviewers
                   identified these deficiencies. During our review, we found the
                   following issues with respect to reviews of CDFI Fund applications:

                      •   One Phase I reader’s justification for the expertise of
                          management staff did not match the justification provided by
                          the other two readers. In addition, several justifications

            The Community Development Financial Institutions Fund Needs to Improve
            Its Process for Awarding Assistance to Applicants (OIG-11-079)           Page 11
                               provided no detail or insufficient detail to justify the assigned
                               scores. We also found that weaknesses identified by 2 out
                               of 3 readers for one application were not identified by the
                               third reader, who stated that the application had no
                               weaknesses.

                           •   Several readers did not answer all questions or subquestions
                               required by the review workbook.

                           •   Three applications for NACA awards received scores for
                               Financial Health and Viability that were below the minimum
                               allowable score for award approval, but they were approved
                               anyway.

                       Team leaders are supposed to provide feedback to the readers to
                       ensure that scores and justifications conform to the reviewer
                       guidance. According to CDFI Fund personnel, when providing such
                       feedback to readers, team leaders are not to ask leading questions
                       of the readers that would cause readers to alter their initial scoring;
                       they are to ask for justification to support the score that was
                       assigned by the reader. However, we found two instances where
                       the feedback provided must have influenced the scoring process
                       because readers increased their scores as a result.

                       In addition to the weaknesses identified in the application review
                       process, we found that the CDFI Fund did not always maintain
                       complete application files. Specifically, we noted that certain key
                       documents required for a complete application review were missing
                       from several applicants’ files, such as financial statements,
                       501(c)(4) certifications, 12 organizational charts, and certifications
                       of material events. From our review of the application packages
                       and the written comments provided by readers and reviewers, we
                       believe that the missing documents must have been available to
                       the readers and reviewers during the time of their evaluations.
                       However, as a result of these missing documents, we were unable
                       to verify whether all assistance applications were reviewed in a
                       consistent manner or in accordance with applicable guidance.


12
  A letter from the Internal Revenue Service evidencing that the applicant is exempt from federal
income taxes under section 501 (c)(4) of the U.S. Internal Revenue Code, as a social welfare
organization.

               The Community Development Financial Institutions Fund Needs to Improve
               Its Process for Awarding Assistance to Applicants (OIG-11-079)                       Page 12
       Team leaders with whom we spoke told us the following reasons
       why they believe the breakdown in the application review process
       may have happened:

           •   Inconsistencies among readers’ work may have been missed
               because team leaders often reviewed multiple applications
               concurrently.

           •   Insufficient or lack of training provided to readers and team
               leaders on the application review procedures.

           •   A lack of controls to ensure that complete assistance
               application files were maintained.

       As stated above, the CDFI Fund is required to evaluate all
       assistance applications in a fair and consistent manner. However,
       because of weaknesses in its system of control, improper scoring
       may have resulted in the granting of awards to ineligible applicants
       or the denial of awards to deserving applicants.

       Recommendations

       We recommend that CDFI Fund Director take the following action:

          4.    Strengthen the training provided to Phase I readers, team
                leaders, and Phase II reviewers to ensure that personnel
                understand and comply with the applicable guidance to
                evaluate applications consistently and fairly.

                Management Response

                CDFI Fund management stated that it revised the CDFI
                Program reviewers’ guidance training, strengthened the
                scoring guidance, and conducted multiple training sessions
                for reviewers. In addition, CDFI revised the team leaders’
                guidance document to emphasize consistency, fairness,
                and objectivity. The guidance document includes examples
                of language that team leaders may use to avoid the
                possibility of unintentionally influencing scores while
                soliciting reviewer clarification. Oversight of team leaders



The Community Development Financial Institutions Fund Needs to Improve
Its Process for Awarding Assistance to Applicants (OIG-11-079)           Page 13
                has been strengthened and new team leaders have been
                mentored by experienced team leaders.

                OIG Comment

                Management’s response meets the intent of our
                recommendation.

          5.    Institute a final review by the team leader to ensure that all
                inconsistencies between the review phases are adequately
                addressed and appropriately documented.

                Management Response

                CDFI Fund management stated it implemented stronger and
                clearer team leader training, specifically incorporating
                various strategies for reducing reviewer inconsistencies.
                Non-CDFI Program team leaders were partnered with CDFI
                Program staff team leaders to help eliminate confusion and
                address issues of inconsistencies. Further, the CDFI Fund
                revised the application scoring system for applications,
                requiring reviewers to be more systematic in their reviews.

                OIG Comment

                Management’s response meets the intent of our
                recommendation.

          6.    Establish a filing system with requisite controls to ensure
                that complete assistance application files are properly
                maintained.

                Management Response

                CDFI Fund management stated that it will establish
                Standard Operating Procedures for a filing system with
                requisite controls to ensure complete assistance application
                files are properly maintained.




The Community Development Financial Institutions Fund Needs to Improve
Its Process for Awarding Assistance to Applicants (OIG-11-079)           Page 14
                            OIG Comment

                            Management’s planned action meets the intent of our
                            recommendation.

                      7.    Evaluate the reasonableness of established timeframes for
                            application reviews to ensure that adequate time is
                            provided for a complete and thorough review of each
                            application.

                            Management Response

                            CDFI Fund management stated that it will evaluate the
                            reasonableness of established timeframes for CDFI Program
                            application reviews to ensure adequate time is provided for
                            a complete and thorough review of each application.

                            OIG Comment

                            Management’s planned action meets the intent of our
                            recommendation.

Finding 4          Assistance Agreements for Fiscal Year 2009
                   Funding Were Not Prepared Consistently
                   The CDFI Fund did not ensure that assistance agreements for fiscal
                   year 2009 awardees were consistently prepared or reviewed. Aside
                   from the differences caused by the inconsistent NOFA
                   requirements for the fiscal year 2009 funding round, discussed in
                   finding 1, we found instances where the assistance agreements
                   omitted required information or included incorrect data that was
                   not flagged during the CDFI Fund review process. Specifically, we
                   identified 4 instances from our sample of 35 applications where the
                   assistance agreements did not include the required schedule of
                   resource deployment. The schedule of resource deployment is
                   required to be included in each assistance agreement so that
                   awardees deploy their awards in a timely manner throughout the
                   period of award. Without such a schedule, awardees could
                   conceivably hold onto their funds as late as when the award is due
                   to expire. We also found one instance where the awardees'


            The Community Development Financial Institutions Fund Needs to Improve
            Its Process for Awarding Assistance to Applicants (OIG-11-079)           Page 15
       performance goals and measures were incorrect, resulting in an
       assistance agreement that included more stringent requirements
       than it should have.

       According to the CDFI Fund’s procedures, once the Grant
       Management Office makes the final determination to award, the
       assistance agreement is entered into the Assistance Agreement
       System by the CDFI Program Office based on an awardee's
       application package. The Office of Public and Legislative Affairs is
       notified when the agreement is ready for legal review. It is the legal
       staff’s responsibility to review the draft assistance agreements to
       ensure that the appropriate goals and measures, program and
       statutory regulations, CDFI Fund policies, and other data elements
       from the award package are included.

       In the cases of the missing schedules of resource deployment,
       CDFI Fund personnel told us that the omissions were due to a
       technical glitch within the Assistance Agreement System.
       However, the missing schedules were also not identified by the
       CDFI Fund legal staff during their review of the draft assistance
       agreements. Since bringing this matter to the attention of the CDFI
       Fund management, we were informed that other assistance
       agreements with missing schedules were found and are being
       corrected by CDFI Fund personnel.

       Furthermore, with regard to the assistance agreement that
       improperly included more stringent requirements than it should
       have, we were told that the grants management staff mistakenly
       input incorrect information into the Assistance Agreement System.
       Again, that was not identified by the CDFI Fund legal staff during
       their review of the draft assistance agreement.

       Recommendations

       We recommend that CDFI Fund Director take the following action:

            8. Identify and correct the weaknesses in the Assistance
               Agreement System that allowed the deployment of
               resources schedules to be omitted from the assistance
               agreements.



The Community Development Financial Institutions Fund Needs to Improve
Its Process for Awarding Assistance to Applicants (OIG-11-079)           Page 16
                Management Response

                CDFI Fund management stated that its current Information
                Technology plan focuses on the development of a new
                grant life-cycle solution that will replace the Assistance
                Agreement System in 2013, subject to funding availability.
                Also, as a result of issues identified by the CDFI Fund’s
                Office of Legal Counsel during the FY 2009 CDFI and
                NACA Program funding round, that office no longer uses
                the Assistance Agreement System to generate assistance
                agreements for either the CDFI or NACA programs.

                OIG Comment

                Management’s planned action meets the intent of our
                recommendation.

          9.    Review all assistance agreements to ensure that the
                deployment of resources schedule and the proper
                performance measures are included, and correct any
                omissions or errors accordingly.

                Management Response

                CDFI Fund management stated that awardees were sent
                amendment letters with corrected schedules including
                deployment tables. CDFI Fund personnel are currently
                following up to ensure that all of the corrective
                amendments have been received and counter-executed by
                the awardees.

                OIG Comment

                Management’s response meets the intent of our
                recommendation. However, we reiterate the need for
                review of all assistance agreements as our audit disclosed
                instances of missing deployment schedules and inclusion of
                improper performance measures subsequent to the Office
                of Legal Counsel’s identification of the errors in the
                Assistance Agreement System.



The Community Development Financial Institutions Fund Needs to Improve
Its Process for Awarding Assistance to Applicants (OIG-11-079)           Page 17
             10. Reinforce the need for CDFI Fund’s grants management
                 staff follow all applicable procedures when preparing and
                 reviewing awardee assistance agreements in the
                 Assistance Agreement System. Reinforce the same need to
                 follow all applicable procedures with the CDFI Fund’s legal
                 staff when reviewing assistance agreements.

                 Management Response

                 CDFI Fund management stated that it realigned the former
                 grants management office and its responsibilities have
                 been incorporated into other business units. The respective
                 program managers and their staff are responsible for
                 ensuring the accuracy of the performance goals and
                 measures in each awardee’s assistance agreement.

                 OIG Comment

                 Management’s response meets the intent of our
                 recommendation. We reiterate that the CDFI Fund should
                 ensure that applicable procedures are followed by legal
                 staff as well as the grants management staff.




                          **********


       We appreciate the courtesies and cooperation provided to our staff
       during this audit. If you wish to discuss this report, you may
       contact me at (202) 927-5784 or Cynthia Milanez, Audit Manager,
       at (202) 927-4879.

       /s/

       Donna Joseph
       Audit Director




The Community Development Financial Institutions Fund Needs to Improve
Its Process for Awarding Assistance to Applicants (OIG-11-079)           Page 18
       Appendix 1
       Objectives, Scope and Methodology




       In March 2009, we initiated an audit of the additional funding
       provided to the CDFI Fund through the Recovery Act to determine
       whether an appropriate level of accountability, control, and
       oversight had been established for the expenditure of those funds.
       This report specifically focused on the CDFI Fund’s process for
       awarding the Recovery Act funds.

       In performing our work, we interviewed key CDFI Fund personnel
       and Treasury officials; reviewed laws and regulations governing the
       CDFI Fund, internal policies and procedures, and reviewer guidance
       for CDFI Fund staff and external contractors; and tested
       applications and documentation of awardees. We applied statistical
       sampling to select a random sample of 35 applications for testing
       from the universe of 69 Recovery Act awardees. We determined
       our sample size based on a 90 percent confidence level, an
       expected error rate of 50 percent, and 10 percent sample
       precision. As a result, we tested $49 million (50 percent) of the
       $98 million of Recovery Act funds that had been awarded.

       We conducted our fieldwork for this report at the CDFI Fund in
       Washington, D.C., from June 2009 through February 2011.

       Our audit was conducted in accordance with generally accepted
       government auditing standards for performance audits. Those
       standards require that we plan and perform the audit to obtain
       sufficient, appropriate evidence to provide a reasonable basis for
       our findings and conclusions based on our audit objectives. We
       believe that the evidence obtained provides a reasonable basis for
       our findings and conclusions based on our audit objectives.




The Community Development Financial Institutions Fund Needs to Improve
Its Process for Awarding Assistance to Applicants (OIG-11-079)           Page 19
       Appendix 2
       Management Response




The Community Development Financial Institutions Fund Needs to Improve
Its Process for Awarding Assistance to Applicants (OIG-11-079)           Page 20
       Appendix 2
       Management Response




The Community Development Financial Institutions Fund Needs to Improve
Its Process for Awarding Assistance to Applicants (OIG-11-079)           Page 21
       Appendix 2
       Management Response




The Community Development Financial Institutions Fund Needs to Improve
Its Process for Awarding Assistance to Applicants (OIG-11-079)           Page 22
       Appendix 2
       Management Response




The Community Development Financial Institutions Fund Needs to Improve
Its Process for Awarding Assistance to Applicants (OIG-11-079)           Page 23
       Appendix 2
       Management Response




The Community Development Financial Institutions Fund Needs to Improve
Its Process for Awarding Assistance to Applicants (OIG-11-079)           Page 24
       Appendix 2
       Management Response




The Community Development Financial Institutions Fund Needs to Improve
Its Process for Awarding Assistance to Applicants (OIG-11-079)           Page 25
       Appendix 3
       Major Contributors To This Report




       Donna Joseph, Director
       Cynthia Milanez, Audit Manager
       Bobbi Paulson, Audit Manager
       Chereeka Straker, Auditor-in-Charge
       Syed Owais Rizvi, Auditor-in-Charge
       Nicholas Slonka, Auditor
       Ingrid Balocco, Auditor
       Alexander Milne, Auditor
       Paul Harris, Auditor
       Rufus Etienne, Referencer




The Community Development Financial Institutions Fund Needs to Improve
Its Process for Awarding Assistance to Applicants (OIG-11-079)           Page 26
       Appendix 4
       Report Distribution




       Department of the Treasury

          Assistant Secretary for Management of the Treasury, Chief
             Financial Officer, and Chief Performance Officer
          Deputy Chief Financial Officer
          Director, Strategic Planning and Performance Management


       Community Development Financial Institutions Fund

          Director
          Senior Advisor, Office of the Director
          Senior Program Analyst, Office of the Director
          Program Manager, CDFI Program


       Office of Management and Budget

          OIG Budget Examiner


       Recovery and Accountability and Transparency Board




The Community Development Financial Institutions Fund Needs to Improve
Its Process for Awarding Assistance to Applicants (OIG-11-079)           Page 27
